   COMPILATION OF THE FY 2000 FINANCIAL STATEMENTS
   FOR OTHER DEFENSE ORGANIZATIONS-GENERAL FUNDS

Report No. D-2001-116                          May 8, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
IG                    Inspector General
OMB                   Office of Management and Budget
OSD                   Office of the Secretary of Defense
                       Office of the Inspector General, DoD
Report No. D-2001-116                                                    May 8, 2001
  (Project No. D2001FA-0016.001)

             Compilation of the FY 2000 Financial Statements
             for Other Defense Organizations-General Funds

                                   Executive Summary

Introduction. We performed the audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD and other Government agencies to prepare annual audited financial statements.
The FY 2000 DoD Agency-Wide Financial Statements include financial statements for
a reporting entity entitled “Other Defense Organizations-General Funds.” The entity
represents a consolidation of financial information from various Defense organizations
and funds that use the Treasury Index 97 symbol, also referred to as Department 97.
(See Appendix C for a listing of Other Defense Organizations-General Funds.) Other
Defense Organizations-General Funds reported $42 billion in assets, $201.6 billion in
liabilities and $58.1 billion in budget authority in the FY 2000 financial statements.

Objectives. Our primary objective was to determine whether the Defense Finance and
Accounting Service Indianapolis (Sustaining Forces) consistently and accurately
consolidated and compiled financial data from supporting accounting offices and other
sources for the FY 2000 Financial Statements for Other Defense Organizations-General
Funds. Specifically, we evaluated whether the compilation of the financial information
for the FY 2000 Financial Statements for Other Defense Organizations was complete,
and whether the footnotes fully disclosed material discrepancies and additional
information relevant to the financial statements. Appendix A discusses the audit scope
and methodology. Our review of internal controls is discussed in Inspector General,
DoD, Report No. D-2001-060, “Internal Controls and Compliance with Laws and
Regulations for the FY 2000 Financial Statements for Other Defense Organizations-
General Funds,” February 28, 2001.

Results. The Defense Finance and Accounting Service Indianapolis (Sustaining
Forces) included unexplained abnormal and inconsistent balances in the FY 2000 Other
Defense Organizations-General Funds Financial Statements. Problematic data elements
continue to compromise the integrity and accuracy of the Other Defense Organizations-
General Funds Financial Statements.

     • At least $3.9 billion of unexplained net abnormal balances and an absolute
       amount of $89.5 billion of account balances that were not consistent with
       corresponding Reports on Budget Execution were included in trial balances
       used to prepare the FY 2000 Other Defense Organizations-General Funds
       Financial Statements. However, the accounting offices that support the Other
       Defense Organizations made commendable efforts in improving the timeliness
       of trial balance submissions to the Defense Finance and Accounting Service
       Indianapolis (Sustaining Forces) (finding A).
     • At least $150.5 billion of unsupported year-end departmental accounting entries
       were posted to force multiple accounting records to agree, to eliminate the
       effects of intragovernmental transactions, and to force the financial statements
       to agree (finding B).

     • At least seven material lines of the FY 2000 Financial Statements were not
       reliable and not auditable. Also, the footnotes to the financial statements did
       not adequately disclose the limited reliability of the financial statements.
       Further, the financial statements that were presented to us for audit differed by
       $390.2 billion from the final version of the financial statements used to compile
       the DoD Agency-Wide Financial Statements (finding C).

As a result, the FY 2000 Other Defense Organizations-General Funds Financial
Statements were materially misstated.

Summary of Recommendations. Corrective actions needed for findings A, B, and C
were provided in prior IG, DoD, reports. The reports and their respective
recommendations are listed in Appendix B.

Management Comments. We provided a draft of this report on March 29, 2001. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                           ii
Table of Contents

Executive Summary                                                  i


Introduction
     Background                                                    1
     Objectives                                                    2

Findings
     A. Consolidation of Financial Data                            3
     B. Year-End Departmental Accounting Entries                  10
     C. Reliability of the Financial Statements                   17

Appendixes
     A. Audit Process
          Scope                                                   25
          Methodology                                             27
          Prior Coverage                                          27
     B. Prior Audit Reports With Open Recommendations             28
     C. Other Defense Organizations-General Funds                 30
     D. Accounting Activities Submitting Abnormal Balances of
          More Than $10 Million                                   32
     E. Sub-Entities With Data Discrepancies Over $500 Million    34
     F. Financial Statement Lines That Were Materially Modified   35
     G. Report Distribution                                       36
Background

    Reporting Requirements. Public Law 101-576, the “Chief Financial Officers
    Act of 1990,” November 15, 1990, as amended by Public Law 103-356, the
    “Federal Financial Management Act of 1994,” October 13, 1994, requires DoD
    to prepare annual audited financial statements. In addition, the Federal
    Financial Management Act of 1994 requires the Secretary of the Treasury, in
    coordination with the Director, Office of Management and Budget (OMB), to
    prepare Government-wide financial statements. The Inspector General (IG),
    DoD, is not required to render a separate opinion on the financial statements for
    Other Defense Organizations. However, information from audits of the
    financial statements of Other Defense Organizations contributed to the
    disclaimer of audit opinion on the DoD Agency-Wide Financial Statements for
    FY 2000.

    Other Defense Organizations. The entity “Other Defense Organizations”
    represents a consolidation of financial information from 51 Defense
    organizations and funds that use the Treasury Index 97 symbol. The DoD
    Agency-Wide consolidated financial statements include two columns for Other
    Defense Organizations: an Other Defense Organizations-Working Capital
    Funds column that includes the financial activity of working capital funds not
    connected with the Military Departments, and an Other Defense
    Organizations-General Funds column that includes the financial activity of all
    remaining organizations and funds using the Treasury Index 97 symbol. This
    audit focused on Other Defense Organizations-General Funds, which reported
    $58.1 billion in budget authority in the FY 2000 financial statements. (Later
    references to Other Defense Organizations in this report will generally refer to
    the Other Defense Organizations-General Funds reporting entity.) Appendix C
    provides a list of the 51 Other Defense Organizations-General Funds for
    FY 2000.

    Accounting Functions and Responsibilities. During FY 2000, Defense
    Finance and Accounting Service (DFAS) provided accounting support for all
    Defense organizations that use Treasury Index 97 funds, except for the
    following:

           •   certain organizations supported by the Washington Headquarters
               Services Allotment Accounting System,

           •   the TRICARE Management Activity-West, and

           •   organizations required to perform their own accounting because of
               security considerations.

    Compilation Responsibilities. DoD Regulation 7000.14-R, the “DoD
    Financial Management Regulation,” volume 6B, “Form and Content of the
    Department of Defense Financial Statements,” chapter 2, “General Instructions
    for the Financial Statements,” October 2000, requires DFAS, in coordination



                                        1
     with DoD Components, to prepare financial statements. Beginning in FY 1996,
     DFAS Indianapolis (Sustaining Forces), was responsible for preparing the
     financial statements for Treasury Index 97 funds.

     In compiling and preparing the financial statements for Other Defense
     Organizations, DFAS Indianapolis (Sustaining Forces) did the following:

             •   obtained fiscal year-end trial balances and other financial information
                 from the supporting accounting offices,

             •   consolidated the financial information received,

             •   made year-end accounting entries to post financial data to the
                 accounting records and adjust trial balances, and

             •   used multiple accounting and reporting systems to compile the
                 financial statements.

     Reporting Policy. Other Defense Organizations use the same DoD form and
     content guidance as the DoD Components shown in DoD Regulation 7000.14-R,
     volume 6B. The guidance implements OMB Bulletin No. 97-01, “Form and
     Content of Agency Financial Statements,” October 16, 1996, as amended
     September 11, 2000. DFAS prepared the six principal statements for Other
     Defense Organizations discussed in OMB Bulletin No. 97-01: Balance Sheet,
     Statement of Net Cost, Statement of Changes in Net Position, Statement of
     Budgetary Resources, Statement of Financing, and Statement of Custodial
     Activity.



Objectives

     The primary audit objective was to determine whether DFAS Indianapolis
     (Sustaining Forces) consistently and accurately consolidated and compiled
     financial data from supporting accounting offices and other sources for the
     FY 2000 Financial Statements for Other Defense Organizations. Specifically,
     we evaluated whether the compilation of the financial information for the
     FY 2000 Financial Statements for Other Defense Organizations was complete,
     and whether the footnotes fully disclosed material discrepancies and additional
     information relevant to the financial statements. Appendix A discusses the audit
     scope and methodology. Our review of internal controls is discussed in
     IG, DoD, Report No. D-2001-060, “Internal Controls and Compliance With
     Laws and Regulations for the FY 2000 Financial Statements for Other Defense
     Organizations-General Funds,” February 28, 2001.




                                          2
           A. Consolidation of Financial Data
           Year-end trial balances for Other Defense Organizations included
           $3.9 billion of net abnormal balances that were not all explained in
           required footnotes, and an absolute amount of $89.5 billion of account
           balances that differed from corresponding amounts reported in the
           Reports on Budget Execution. The condition occurred because
           accounting offices that support Other Defense Organizations did not fully
           correct abnormal balances as appropriate, include footnotes to explain
           abnormal balances, or ensure that trial balances were reconciled to
           Reports on Budget Execution. The condition also occurred because
           DFAS Indianapolis (Sustaining Forces) did not fully implement prior
           audit recommendations to:

               •   establish detailed procedures to review and improve quarterly and
                   year-end trial balances,

               •   identify abnormal balances and request that accounting offices
                   submit corrected trial balances, and

               •   identify differences between trial balances and Reports on Budget
                   Execution and coordinate corrections with supporting accounting
                   offices.

           As a result, the FY 2000 Other Defense Organizations-General Funds
           Financial Statements were materially misstated and contributed unreliable
           financial data to the FY 2000 DoD Agency-Wide Financial Statements.



Trial Balances With Net Abnormal Balances

    DFAS Indianapolis (Sustaining Forces) prepared the FY 2000 Other Defense
    Organizations-General Funds Financial Statements from financial data supplied
    by the accounting offices supporting the Other Defense Organizations. Trial
    balances are the primary source of data used to prepare the financial statements;
    therefore, the quality of trial balances directly affects the quality of the financial
    statements. As in previous years, the trial balances supplied by the accounting
    offices to DFAS Indianapolis (Sustaining Forces) to be used for compiling the
    FY 2000 Financial Statements continued to have major deficiencies including
    material abnormal balances and balances that were not consistent with the
    Reports on Budget Execution.

    Abnormal Balances. The accounting offices supporting Other Defense
    Organizations submitted trial balances to DFAS Indianapolis (Sustaining Forces)
    that contained $3.9 billion of net abnormal balances in 85 proprietary general
    ledger accounts. Of the 85 general ledger accounts, 8 represented material net
    abnormal balances totaling about $3.1 billion, as shown in Table 1.




                                          3
           Table 1. Absolute Value of Material Net Abnormal Balances
               Submitted to DFAS Indianapolis (Sustaining Forces)

                                                                     Abnormal Balance
                 General Ledger Account Title*                             (millions)

      Funds Disbursed                                                    $ 968.0

      Accounts Payable-Government-Current                                    467.4

      Other Services Expense                                                 375.3

      Funds with Treasury                                                    358.4

      Appropriated Capital Used                                              349.9
      Equipment                                                              230.6

      Appropriated Capital                                                   160.8

      Appropriated Capital Funding Canceled Payables                         135.6

         Total                                                           $3,046.0
*
    The accounts shown include nonstandard general ledger accounts that DFAS
    Indianapolis (Sustaining Forces) converts to U.S. Government Standard General
    Ledger accounts during the compilation process.



An account balance is abnormal when the reported balance does not comply
with the normal debit or credit balance established in the general ledger chart of
accounts. For example, Accounts Payable-Government-Current, shown in
Table 1, normally has a credit balance; therefore, a debit balance is an abnormal
balance, which should be explained because it represents an abnormal financial
condition. Although some abnormal balances may be appropriate, the
accounting office submitting the abnormal balances should explain the cause of
the abnormal balances in footnotes to the trial balances.

Accounting Offices. Eleven accounting offices submitted year-end trial
balances containing about $3.9 billion of net abnormal balances, as shown in
Table 2.




                                             4
              Table 2. Accounting Offices That Submitted Net Abnormal Balances
                             (listed in descending order based on FY 2000 balances)

                                                                         Net Abnormal Balances
                                                                                 (millions)

                              Accounting Offices                         FY 1999         FY 2000

              DFAS Indianapolis (Sustaining Forces)                      $ 485.7        $2,438.1

              DFAS Cleveland                                                924.9             413.1

              DFAS Columbus                                                 690.8             395.0
              DFAS Denver                                                   368.4             272.2

              DoD Dependent Schools                                         127.7             105.7

              Defense Information Systems Agency                            282.3             100.7

              Defense Agency Financial Services
                (Indianapolis)                                              215.8              75.7

              TRICARE Management Activity                                   102.1              30.9

              Defense Threat Reduction Agency                                13.3              17.2

              Uniformed Services University of the Health                      7.6              4.5
                Sciences

              Defense Accounting Directorate (Washington
                Headquarters Services)                                      159.2               3.1

                 Total                                                  $3,377.8        $3,856.2


           Of the 11 accounting offices, 9 submitted trial balances that reported net
           abnormal balances greater than $10 million for more than 54 sub-entities (see
           Appendix D for a list of the sub-entities).

           Trial Balance Footnotes. Of the 11 accounting offices that submitted trial
           balances containing abnormal balances, 5 accounting offices prepared the
           required1 footnotes to explain abnormal balances. The following six accounting
           offices did not submit footnotes:


1
    DFAS Indianapolis (Sustaining Forces) “Year-End Instructions for Defense Agencies,” June 16, 2000,
    required preparers of reports to “properly footnote, with a detailed explanation, all net abnormal
    balances or conditions” on the trial balance.



                                                    5
                    •    Defense Agency Financial Services,
                    •    Defense Information Systems Agency,
                    •    Defense Threat Reduction Agency,
                    •    DFAS Columbus,
                    •    DFAS Indianapolis (Sustaining Forces),2 and
                    •    TRICARE Management Activity.

           The footnotes accompanying the trial balances are required to include detailed
           explanations for each abnormal balance contained within the trial balance. The
           explanation should identify the cause of the abnormal balance, the circumstances
           involved, actions underway to resolve the abnormal condition, and an estimated
           date when the abnormal balance will be corrected. The footnotes submitted to
           DFAS Indianapolis (Sustaining Forces) were, in some cases, incomplete. For
           example, DFAS Denver provided footnotes for most abnormal balances but did
           not include an explanation for a $106.5 million net abnormal balance reported in
           general ledger account 3105 “Appropriated Capital-Funding-Canceled
           Payables.” Additionally, many of the footnotes lacked specific information
           including explanations for corrective action and estimated completion dates.
           The quality of footnotes is important because footnotes provide a medium for
           communicating explanations of anomalies contained in the trial balances to
           financial statement preparers, who in turn can use the explanations to prepare
           adequate financial statement disclosures. Additionally, footnotes also serve as
           a mechanism for identifying anomalies and tracking the status of corrective
           actions.

           Audit Recommendations Addressing Abnormal Balances and Trial Balance
           Footnotes. IG, DoD, Report No. D-2000-153, “Compilation of the FY 1999
           Financial Statements For Other Defense Organizations-General Funds,”
           June 23, 2000, included recommendations to accounting offices and DFAS
           Indianapolis (Sustaining Forces) addressing abnormal balances and trial balance
           footnotes.

                   Recommendations to Accounting Offices. The IG, DoD,
           recommended that accounting offices correct abnormal balances, if appropriate,
           before submitting trial balances to DFAS Indianapolis (Sustaining Forces). At
           least two accounting offices, the Defense Agency Financial Services and
           Washington Headquarters Services, took corrective action during FY 2000 and
           successfully reduced the amount of net abnormal balances reported at year-end
           by 65 percent and 98 percent respectively from the amounts reported at the end
           of FY 1999. However, the trial balances prepared by DFAS Indianapolis
           (Sustaining Forces) for Department 97 funds sub-allotted to the Army reported a
           $2 billion increase in the amount of abnormal balances reported at the end of
           FY 2000 from the amount reported at the end of FY 1999. Accounting
           personnel could not provide an explanation for the significant increase. Until all
           of the accounting offices fully implement the audit recommendation from prior
           reports, future trial balances will continue to report abnormal balances.


2
    DFAS Indianapolis (Sustaining Forces) performs accounting and reporting functions for Department 97
    funds sub-allotted to Department of the Army, and submits those financial reports to the Other Defense
    Organizations Audited Financial Statements Team, also located at DFAS Indianapolis (Sustaining
    Forces).



                                                      6
    The IG, DoD, also recommended that accounting offices prepare footnotes to
    fully explain abnormal balances reported in trial balances provided to DFAS
    Indianapolis (Sustaining Forces). Until the accounting offices fully implement
    those audit recommendations, the quality of the trial balance reporting process
    will be impaired.

            Recommendations to DFAS Indianapolis (Sustaining Forces). The
    IG, DoD, recommended that DFAS Indianapolis (Sustaining Forces) establish
    and implement procedures to review the quarterly trial balances submitted by
    accounting offices and identify abnormal balances. However, DFAS
    Indianapolis (Sustaining Forces) did not have procedures in place during
    FY 2000 to analyze trial balances submitted each quarter by the accounting
    offices. As of February 2001, DFAS Indianapolis (Sustaining Forces) had
    developed the General Ledger Reconciliation Report which, as part of its
    function, will identify abnormal balances and will be used to notify accounting
    offices and Defense agencies of abnormal balances. DFAS Indianapolis
    (Sustaining Forces) intends to use the General Ledger Reconciliation Report to
    perform quarterly reviews throughout FY 2001, beginning with the first quarter
    of the fiscal year.



Trial Balances and Reports on Budget Execution

    Differences Between Reports on Budget Execution and Trial Balances. The
    FY 2000 year-end Reports on Budget Execution and trial balances prepared for
    the 51 Other Defense Organizations differed by an absolute amount of
    $89.5 billion when reporting similar categories of financial data. The
    discrepancies had a net value of $67.3 billion, for which DFAS Indianapolis
    (Sustaining Forces) prepared accounting entries to remove the discrepancies (see
    finding B). For example, the trial balances from Army organizations receiving
    sub-allotments from the Ballistic Missile Defense Organization, (limit 2501),
    reported $11.5 billion in unexpended appropriations; however, the
    corresponding Report on Budget Execution reported $1 billion, a difference of
    $10.5 billion. Appendix E lists the sub-entities whose reports had discrepancies
    exceeding $500 million.

    IG, DoD, Report No. D-2000-153 recommended that DFAS Indianapolis
    (Sustaining Forces) implement procedures to identify differences between trial
    balances and Reports on Budget Execution on a quarterly basis and request that
    accounting offices make corrections to the financial reports. DFAS Indianapolis
    (Sustaining Forces) has not implemented that recommendation. To reduce the
    large data discrepancies, DFAS Indianapolis (Sustaining Forces) should target
    those entities with the largest discrepancies and, in cooperation with the entities
    and the supporting accounting offices, aggressively work to identify the reasons
    for the discrepancies and, where appropriate, implement corrective actions.

    Abnormal Balances and Inconsistent Balances. Financial reports prepared for
    139 sub-entities included both abnormal balances and discrepancies between the
    Reports on Budget Execution and trial balances. Of the 139 sub-entities,



                                         7
           59 sub-entities had net abnormal balances totaling $136.7 million that exactly
           matched the amount of the difference between the Reports on Budget Execution
           and the trial balances. DFAS Indianapolis (Sustaining Forces) should prioritize
           for improvement those sub-entities that have both abnormal balances and
           discrepancies between the two reports.



Submission of Trial Balances

           Of the 11 accounting offices that submitted year-end trial balances, 5 submitted
           trial balances by the November 1, 2000, deadline established by DFAS
           Indianapolis (Sustaining Forces), and the remaining 6 accounting offices
           submitted trial balances by November 2. Compared to FY 1999, when the last
           trial balances were submitted on November 17, the accounting offices made
           significant progress in submitting reports to DFAS Indianapolis (Sustaining
           Forces) in a timely manner. The improvement is due, in part, to proactive
           measures taken by DFAS Indianapolis (Sustaining Forces), and its newly formed
           Other Defense Organizations Audited Financial Statements Team,3 to coordinate
           with accounting offices and ensure accounting offices submitted trial balances in
           a timely manner.



Conclusion

           Because financial data for the Other Defense Organizations included abnormal
           balances and data from separate reports that did not match, the Other Defense
           Organizations contributed unreliable financial data to the FY 2000 DoD
           Agency-Wide Financial Statements. Until fully corrected, those major
           deficiencies will continue to inhibit DoD’s progress toward a favorable opinion
           on the DoD Agency-Wide Financial Statements.
           We are not making recommendations to address causes discussed in this finding
           because the needed recommendations were made in prior audit reports.

           IG, DoD, Report No. D-2000-153 recommended that accounting offices
           supporting the Other Defense Organizations correct abnormal balances, if
           appropriate, and footnote all abnormal balances included on quarterly and
           annual trial balances submitted to DFAS Indianapolis (Sustaining Forces) for
           inclusion in the financial statements. At least five accounting offices complied
           with the recommendation. Of the six remaining accounting offices,
           three offices, the Defense Agency Financial Services, DFAS Columbus, and
           DFAS Indianapolis (Sustaining Forces), are part of DFAS which anticipated full

3
    DFAS Indianapolis (Sustaining Forces) created the Other Defense Organizations Audited Financial
    Statements Team during FY 2000 to provide dedicated financial preparation services to the Other
    Defense Organizations.



                                                     8
       implementation of the recommendation to be complete by January 2001. The
       Defense Information Systems Agency, Defense Threat Reduction Agency and
       TRICARE Management Activity had agreed to submit footnotes by
       September 30, 2000, but DFAS Indianapolis (Sustaining Forces) did not receive
       footnotes with the September 30, 2000, trial balances submitted by the
       three agencies.*

       In response to recommendations made in IG, DoD, Report No. D-2000-153,
       DFAS Indianapolis (Sustaining Forces) created a team of personnel dedicated to
       preparing the Other Defense Organizations-General Fund Financial Statements,
       and issued guidance to accounting offices requesting that the offices correct
       abnormal balances and footnote any remaining abnormal balances included in
       the year-end trial balances. DFAS Indianapolis (Sustaining Forces) originally
       anticipated a completion date of August 31, 2000, for establishing and
       implementing procedures for identifying abnormal balances and differences
       between trial balances and Reports on Budget Execution, and for coordinating
       corrective action with accounting offices. DFAS Indianapolis (Sustaining
       Forces) has developed the General Ledger Reconciliation Report to perform the
       recommended functions and anticipates using the report for the first quarter of
       FY 2001. The report will serve as a tool to assist in resolving abnormal
       balances and discrepancies in the financial statements.

       Also see Appendix B for a list of open audit recommendations that address
       issues discussed in this finding.




*Revised




                                          9
B. Year-End Departmental Accounting
   Entries
As part of the process for compiling the Other Defense Organizations-
General Funds FY 2000 Financial Statements, DFAS Indianapolis
(Sustaining Forces) prepared 376 year-end departmental accounting
entries totaling $150.5 billion that were unsupported and 23 year-end
departmental accounting entries totaling $410.3 million that were
improper. DFAS Indianapolis (Sustaining Forces) prepared the entries,
in part, because of the poor quality of data generated from DoD
accounting systems that were not general ledger based nor fully
integrated. In addition, the major causes of the unsupported entries were
because DFAS Indianapolis (Sustaining Forces) did not coordinate with
accounting offices supporting the Other Defense Organizations to
research, reconcile, and correct:

   •   differences totaling $7.7 billion between the amounts reported for
       disbursements and collections in the Reports on Budget Execution
       and those reported in U.S. Treasury records,

   •   net differences of $67.3 billion between amounts reported in the
       Reports on Budget Execution and corresponding amounts
       reported in the general ledger trial balances,

   •   differences of $19.8 billion between the amounts reported for
       intragovernmental transactions by buyers and those reported by
       sellers, and

   •   differences of $22.0 billion between the amount reported for Net
       Costs of Operations in the Statement of Net Cost and the amount
       reported for Net Costs of Operations in the Statement of
       Financing.

The entries were also unsupported because DFAS Indianapolis
(Sustaining Forces) prepared $11.2 billion of entries that did not contain
an adequate justification fully explaining the purpose and rationale for
the entry. Accounting entries were improper primarily because DFAS
Indianapolis (Sustaining Forces) did not reconcile and correct abnormal
balances totaling $95.3 million in accounts payable for appropriation
accounts scheduled to close at the end of FY 2000. As a result, the
Other Defense Organizations-General Funds Financial Statements were
materially misstated and contributed unreliable amounts to the
DoD Agency-Wide Financial Statements.




                            10
Year-End Departmental Accounting Entries

    Total of Year-End Accounting Entries. As part of the year-end process,
    DFAS Indianapolis (Sustaining Forces) prepared 1,238 journal vouchers totaling
    $546.8 billion to adjust the accounting records used to compile the financial
    statements, as shown in Table 3.


              Table 3. FY 2000 Year-End Departmental Accounting Entries*

                                                                           Not
                          Supported     Unsupported        Improper      Reviewed       Total

     Dollar value
           (billions)
                            $334.3          $150.5            $.4          $61.6       $546.8


           Quantity           81              376             23            758         1,238

     *
         Due to continued refinement and audit review, the numbers for the Other Defense
         Organizations-General Funds accounting entries were revised from those reported in
         IG, DoD, Report No. D-2001-070, "Internal Controls and Compliance With Laws and
         Regulations for the DoD Agency-Wide Financial Statements for FY 2000,"
         February 28, 2001.



    We reviewed 480 entries that totaled $485.2 billion and represented 89 percent
    of the total dollar value of the year-end departmental accounting entries.

    Criteria for Accounting Entries. Among the responsibilities assigned to
    DFAS by DoD Regulation 7000.14-R, volume 6, chapter 2, “Departmental
    Financial Reports, Roles, and Responsibilities,” three responsibilities
    specifically apply to the preparation of year-end departmental accounting
    entries. First, DFAS is responsible to identify obvious errors and
    inconsistencies in financial data and financial reports. Second, DFAS is
    responsible to research and reconcile discrepancies, and identify the appropriate
    accounting action to correct the deficiencies. Third, DFAS is responsible to
    prepare accounting entries that incorporate the outcome of the research and
    reconciliation in a valid accounting entry. A departmental level accounting
    entry should be the culmination of clearly documented research and, when
    prepared, should enhance the integrity of the data. To be supported, an
    accounting entry should include evidence that supports the need for the entry,
    a clearly written rationale and justification, and documentation to provide an
    audit trail.




                                               11
Supported Accounting Entries

    DFAS Indianapolis (Sustaining Forces) prepared supported accounting entries
    totaling at least $334.3 billion to record data calls, year-end closing adjustments,
    and corrections of errors. Of the $334.3 billion, at least $94.1 billion, or
    28 percent, were prepared to correct entries made earlier in the compilation
    process. Although the correcting entries were supported, DFAS Indianapolis
    (Sustaining Forces) can increase the efficiency of the compilation process by
    reducing the total number of correcting entries.



Unsupported Accounting Entries

    DFAS Indianapolis (Sustaining Forces) prepared $150.5 billion of unsupported
    year-end departmental accounting entries to overcome data disparities generated
    by DoD systems and differences between multiple accounting records. An
    accounting entry is unsupported when the entry lacks one or more of the
    elements required for a supported entry.

    DoD Financial Systems. DFAS Indianapolis (Sustaining Forces) prepared
    year-end departmental accounting entries, in part, to overcome data disparities
    generated from DoD financial systems that are not integrated and are not
    general ledger based, including: budgetary systems, expenditure systems, and
    multiple accounting systems supporting the military departments and Other
    Defense Organizations. Each financial system accumulates, formats, displays,
    and exports financial data differently. The financial reports produced from
    those systems, including expenditure reports, budgetary reports, and trial
    balances, frequently do not agree. At year-end, the accounting offices
    supporting the Other Defense Organizations submit data to DFAS Indianapolis
    (Sustaining Forces) that include abnormal balances and data that are not reported
    consistently on multiple reports, as discussed in finding A. In an attempt to
    achieve greater consistency between multiple financial reports, DFAS
    Indianapolis (Sustaining Forces) prepares year-end departmental accounting
    entries forcing those reports to agree.

    Differences Between Multiple Accounting Records. As part of the year-end
    process to prepare the financial statements for the Other Defense Organizations-
    General Fund, DFAS Indianapolis (Sustaining Forces) conducts a series of
    sequential steps to remove differences between multiple accounting records, to
    force those records to match, and to remove anomalies within individual
    accounting records, as shown in Figure 1.




                                        12
                              1. Force Reports on Budget Execution to
                                   Match U.S. Treasury Records



                                   2. Force Trial Balances to Match
                                     Reports on Budget Execution



                                   3. Force Adjusted Trial Balances
                                        to Balance Internally


                                  Figure 1. Sequence of Entries Made to
                                     Force Accounting Data to Agree



                   Reports on Budget Execution and U.S. Treasury Records. DFAS
           Indianapolis (Sustaining Forces) prepared $7.7 billion in unsupported accounting
           entries to force the FY 2000 year-end Reports on Budget Execution to match the
           U.S. Treasury Records. Of the $7.7 billion, $5.8 billion was made to
           disbursements and $1.9 billion was made to collections. The accounting entries
           were unsupported because DFAS Indianapolis (Sustaining Forces) did not
           reconcile differences between budgetary data received from accounting offices
           and the data received from disbursing stations, as required by the Department of
           the Treasury.4 After adjusting disbursements and collections, DFAS
           Indianapolis (Sustaining Forces) subsequently prepared entries to adjust other
           lines on the Reports on Budget Execution for the effect of the adjustments to
           disbursements and collections. Specifically, DFAS Indianapolis (Sustaining
           Forces) made adjustments of $6.2 billion to Undelivered Orders, $1.7 billion to
           Reimbursements Receivable, and $721 thousand to Accounts Payable reported
           on the Reports on Budget Execution.

                   Reports on Budget Execution and Trial Balances. As described in
           finding A, the trial balances differed from the Reports on Budget Execution by a
           net amount of $67.3 billion. During the compilation process, DFAS
           Indianapolis (Sustaining Forces) prepared unsupported accounting entries
           totaling $67.3 billion to force the two sets of financial records to agree. The
           adjustments were unsupported because DFAS Indianapolis (Sustaining Forces)
           did not reconcile the differences between the reports.



4
    Treasury Financial Manual, volume 1, part 2, chapter 5100, “Reconciling Fund Balance With Treasury
    Accounts,” October 1999, requires Federal agencies to reconcile the Fund Balance With Treasury
    account in the general ledger to the disbursing data prepared by disbursing stations.



                                                   13
                   Intragovernmental Transactions. DFAS Indianapolis (Sustaining
            Forces) prepared $19.8 billion in unsupported accounting entries to force
            buyers’ and sellers’ records to match prior to eliminating the effects of
            intragovernmental transactions.5 DoD Regulation 7000.14-R, volume 6B,
            chapter 13, “Fiscal Year 2000 Adjustments, Eliminations, and Other Special
            Intragovernmental Reconciliation Procedures,” directs DFAS to force the
            buyers’ accounting records to match the sellers’ records prior to eliminating
            transactions between the two parties. IG, DoD, Report No. D-2001-042,
            “Accounting and Disclosing Intragovernmental Transactions on the DoD
            Agency-Wide Financial Statements,” January 31, 2001, reported that seller-side
            accounting records have not been fully reliable and that DoD has not
            demonstrated that seller-side information is sufficiently reliable to warrant
            sweeping adjustments to force buyers’ records to match sellers’ records.

                    Differences Between Financial Statements. DFAS Indianapolis
            (Sustaining Forces) prepared $22 billion of unsupported accounting entries to
            force the amount reported for Net Cost of Operations on the Statement of
            Financing to match the amount reported for Net Cost of Operations on the
            Statement of Net Cost. DoD Regulation 7000.14-R, volume 6B, chapter 8,
            “Statement of Financing,” October 2000 states that the two statements should
            report the same amount for Net Cost of Operations. During the compilation
            process, DFAS Indianapolis (Sustaining Forces) performed a limited
            reconciliation and determined that the amounts reported on the two statements
            did not agree. However, DFAS Indianapolis (Sustaining Forces) did not
            complete the reconciliation because they did not correct the causes of the
            differences. Instead, DFAS Indianapolis (Sustaining Forces) prepared
            unsupported accounting entries for $22 billion to force the statements to agree.

            According to Statement of Federal Financial Accounting Concept No. 1,
            chapter 6, “Qualitative Characteristics of Information in Financial Reports,”
            March 1997, financial statements are the end product of a financial reporting
            process and should faithfully represent transactions posted to supporting
            accounting records. The supporting accounting transactions in turn should
            faithfully represent a specific financial event. Therefore, financial statements,
            to retain their integrity, must be representative of transactions that are based in
            true financial events. By not performing a reconciliation that includes
            identifying the causes of the differences between the amounts reported for Net
            Cost of Operations on the Statement of Net Cost and the Statement of
            Financing, DFAS Indianapolis (Sustaining Forces) reduced the reliability of
            both statements.

                     Adequacy of Written Justification. DFAS Indianapolis (Sustaining
            Forces) prepared $11.2 billion in accounting entries that did not include an
            adequate justification clearly explaining the rationale for the entry. Some
            justifications stated what the accounting entry did, for example, “To reclassify
            ‘Other Gains’ between exchange and nonexchange,” but did not explain why the
            reclassification was necessary. In addition, the accompanying documentation
            did not provide a clear indication as to the purpose for the entry.
5
    When an entity prepares consolidated financial statements from sub-entities, the effect of financial
    transactions among the sub-entities should be eliminated and the consolidated financial statements should
    only report transactions with external parties.



                                                      14
Improper Entries

           DFAS Indianapolis (Sustaining Forces) prepared $410.3 million in accounting
           entries that were improper. For example, when preparing the year-end
           FY 2000 Reports on Budget Execution, DFAS Indianapolis (Sustaining Forces)
           prepared improper accounting entries totaling $95.3 million to remove abnormal
           balances from Accounts Payable for appropriation accounts scheduled to close at
           the end of FY 2000. Instead of researching, reconciling, and correcting the
           abnormal balances as required by the DoD Financial Management Regulation,6
           DFAS Indianapolis (Sustaining Forces) offset the abnormal balances in Accounts
           Payable with normal balances in Undelivered Orders and Other Balances
           Currently Available. In another example, personnel attempted to reverse an
           accounting entry for $280,000 made earlier in the compilation process but did
           not post the reversing entry to exactly the same accounts as the original entry.
           As a result, the original entry was not reversed.



Conclusions

           We are not making recommendations to address causes discussed in this finding
           because the needed recommendations were made in prior audit reports.

           IG, DoD, Report No. 99-139, “Internal Controls and Compliance With Laws
           and Regulations for the FY 1998 Financial Statements of the Other Defense
           Organizations,” April 21, 1999, recommended that DFAS Indianapolis
           (Sustaining Forces) prepare an action plan for reconciling accounting records to
           the U.S. Treasury Records. To accomplish the reconciliation, DFAS
           Indianapolis (Sustaining Forces) developed the Cash Management Report to
           calculate balances with the U.S. Treasury at the appropriation and sub-entity
           level. The Cash Management Report provides the detailed information
           necessary to account for the differences between the accounting records and
           U.S. Treasury records. During FY 2000, DFAS Indianapolis (Sustaining
           Forces) attempted to use the Cash Management Report to adjust Reports on
           Budget Execution so that they matched the U.S. Treasury records; however, due
           to significant problems with sub-entity codes, DFAS Indianapolis (Sustaining
           Forces) stopped using the Cash Management Report to make the adjustments.
           DFAS Indianapolis (Sustaining Forces) has continued to work with accounting
           offices to develop a set of valid sub-entity codes and intends to resume the
           process of using the Cash Management Report to adjust Reports on Budget
           Execution in April 2001 for FY 2001 appropriations.

           IG, DoD, Report No. 99-014, “Compilation of the FY 1997 Financial
           Statements for Other Defense Organizations,” October 15, 1998, recommended

6
    DoD Regulation 7000.14-R, DoD Financial Management Regulation, volume 4, chapter 9, “Accounts
    Payable,” requires DoD entities to annually reconcile reported accounts payable to supporting
    documentation, research differences, and fully document necessary adjustments.



                                                  15
that DFAS Indianapolis (Sustaining Forces) document and maintain complete
audit trails for all year-end adjustments made to the Other Defense
Organizations trial balances. During FY 2000, DFAS Indianapolis (Sustaining
Forces) prepared the Recurring Journal Voucher Handbook, August 24, 2000,
to provide documentation for accounting entries that are routinely prepared
during the annual compilation process. In addition, DFAS issued a
memorandum, titled “Journal Voucher Guidance,” on August 2, 2000, to
provide guidance on the preparation of year-end accounting entries.
Notwithstanding these actions, our review of year-end accounting entries
continued to identify instances where the supporting documentation was not
complete.

Also see Appendix B for a list of open audit recommendations that address
issues discussed in this finding.




                                  16
            C. Reliability of the Financial
               Statements
            At least seven material lines on the Other Defense Organizations
            FY 2000 Financial Statements were not reliable, and the footnotes to the
            financial statements, although much improved from previous years, did
            not provide complete disclosures related to abnormal balances and the
            costs of military personnel. Additionally, the financial statements that
            were presented to us for audit and the financial statements that were
            issued as the final version differed by $390.2 billion. The conditions
            occurred because:

               •   the quality of the financial data submitted to DFAS Indianapolis
                   (Sustaining Forces) was poor, as reported in finding A;

               •   financial data were altered through the preparation of unsupported
                   year-end departmental accounting entries, as reported in
                   finding B;

               •   ending balances from FY 1999 were not correctly transferred as
                   the beginning balances for FY 2000; and

               •   DFAS Indianapolis (Sustaining Forces) did not fully implement
                   prior IG, DoD, audit recommendations addressing footnote
                   disclosures.

            The final financial statements for FY 2000 differed materially from the
            financial statements presented for audit because DFAS Indianapolis
            (Sustaining Forces) did not use all of the correct accounts for the
            financial statements presented for audit. The two sets of statements also
            differed because accounting personnel continued to post accounting
            entries after presenting the financial statements for audit. The problems
            with material line items caused the Other Defense Organizations-General
            Funds Financial Statements to be materially misstated, and directly
            contribute to the inability of DoD to obtain a favorable opinion on the
            DoD Agency-Wide Financial Statements.



Reliability of Material Financial Statement Lines

     The reliability of the financial statements prepared for the Other Defense
     Organizations for FY 2000 was materially impaired because of the poor quality
     of data submitted to DFAS Indianapolis (Sustaining Forces) described in finding
     A, the unsupported accounting entries prepared by DFAS Indianapolis
     (Sustaining Forces) described in finding B, and because of additional anomalies
     in the financial statements and the compilation process. Those deficiencies are
     aggregated to show the effect on the following financial statement lines.



                                        17
Fund Balance With Treasury. The $32.4 billion reported for Fund Balance
With Treasury on the balance sheet was not reliable. The amount, as reported,
was not reliable because a total of $19.4 billion in unsupported accounting
entries were posted to Fund Balance With Treasury. The $19.4 billion included
$7.7 billion to force the Reports on Budget Execution to match U.S. Treasury
records and $11.7 billion to force general ledger account balances to match
Reports on Budget Execution.

Accounts Payable. The amounts reported on the Balance Sheet for Accounts
Payable Intragovernmental of $.7 billion and Accounts Payable (Public) of
$2.5 billion were not reliable. DFAS Indianapolis (Sustaining Forces) made
unsupported accounting entries totaling $4 billion affecting those accounts, as
shown in Table 4.


            Table 4. Accounting Entries Affecting Accounts Payable

                                                                   Amount
              Description of Accounting Entry                      (billions)


 Force buyers’ records to match sellers’ records                     $2.9

 Remove abnormal balances for appropriation accounts
   scheduled to close at the end of FY 2000                           0.9

 Entries to force general ledger trial balances to match
   Reports on Budget Execution                                        0.2

    Total                                                            $4.0


Program Costs. The $53.9 billion reported for Net Program Costs on the
Statement of Net Cost was unreliable because $14.7 billion of unsupported
adjustments were posted to adjust expense accounts in preparation for
eliminating intragovernmental transactions.

Unobligated Balance-Beginning of Period. The $10.8 billion reported for
Unobligated Balance-Beginning of Period on the Statement of Budgetary
Resources was not reliable. DoD Financial Management Regulation,
volume 6B, Appendix B, “Reconciliation Requirements for the Annual Financial
Statements,” October 2000, and OMB Circular No. A-34, “Instruction on
Budget Execution,” October 1999, require the prior year Unobligated Balances
Available and Unavailable to be carried forward as the following year
Unobligated Balance-Beginning of Period. For FY 1999, the Unobligated
Balances Available and Unavailable totaled $12.5 billion; however, the FY 2000




                                    18
           Unobligated Balance-Beginning of Period reported $10.8 billion, a difference of
           $1.7 billion. DFAS Indianapolis (Sustaining Forces) did not document or
           explain the discrepancy in the footnotes to the financial statements.7

           Obligated Balance, Net-Beginning of Period. The $22.6 billion reported for
           Obligated Balances, Net-Beginning of Period on the Statement of Budgetary
           Resources was not reliable. The prior year Obligated Balance, Net-End of
           Period should transfer as the following year Obligated Balance, Net-Beginning
           of Period. For FY 1999 the Obligated Balance, Net-End of Period was
           $22.2 billion, however, the FY 2000 Obligated Balance, Net-Beginning of
           Period reported $22.6 billion, a difference of $.4 billion, with no explanation in
           the footnotes.

           Obligated Balance, Net-End of Period. The $21.2 billion reported for
           Obligated Balance, Net-End of Period on the Statement of Budgetary Resources
           was not reliable because the amount included $7.9 billion in unsupported
           accounting entries to Accounts Receivable, Accounts Payable, and Undelivered
           Orders. The unsupported accounting entries were prepared as part of the
           process for forcing Reports on Budget Execution8 to match U.S. Treasury
           records.

           Total Outlays. The $56.4 billion reported for Total Outlays on the Statement
           of Budgetary Resources was not reliable. The amount was not reliable because
           the amount included $7.7 billion in unsupported accounting entries made to
           disbursements and collections as part of the process to force the Reports on
           Budget Execution to match U.S. Treasury records.



Notes to the Principal Financial Statements

           DFAS Indianapolis (Sustaining Forces) made improvements to the footnotes
           accompanying the FY 2000 Other Defense Organizations Principal Financial
           Statements. The footnotes provide greater detail and more thorough
           explanations than those prepared in previous years. The notes generally
           complied with guidance provided by OMB and DoD, and recommendations
           made by prior IG, DoD, audits, except for disclosures related to abnormal
           balances and military personnel costs.

           Abnormal Balances. Disclosures regarding material abnormal balances
           contained within normal balances were not explained in notes to the FY 2000


7
    OMB Circular No. A-34, Section 41.4 and DoD Financial Management Regulation, volume 6B,
    chapter 7, Paragraph 070104, state that any material discrepancies between the current and the
    preceding fiscal year’s balances must be noted and fully explained.
8
    The Statement of Budgetary Resources, as prepared by DFAS Indianapolis (Sustaining Forces), is a
    summarization of budgetary data reported on the Reports on Budget Execution. Specifically, Obligated
    Balance, Net-End of Period on the Statement of Budgetary Resources is an aggregation of the amounts
    presented on the Reports on Budget Execution for Accounts Receivable, Unfilled Customer Orders,
    Undelivered Orders, and Accounts Payable.



                                                     19
    financial statements. For example the abnormal balances discussed in
    finding A, such as the $467.4 million abnormal balance in Accounts Payable-
    Government Current, were not disclosed or discussed in the footnotes.

    IG, DoD, Report No. 99-191, “Compilation of the FY 1998 Financial
    Statements for Other Defense Organizations,” June 24, 1999, recommended that
    DFAS Indianapolis (Sustaining Forces) explain material abnormal balances
    included within normal balances. DFAS did not explain all abnormal balances
    included within normal balances in the FY 2000 financial statements.

    Military Personnel Costs. DFAS Indianapolis (Sustaining Forces) did not
    clearly explain in Note 1 to the FY 2000 Other Defense Organizations-General
    Funds Financial Statements that the costs for military personnel working in
    Defense Agencies were not included in the financial statements. IG, DoD,
    Report No. 99-014 stated that DFAS should disclose military personnel costs
    not included in financial data for Other Defense Organizations. Because
    military personnel are assigned to Other Defense Organizations but are not
    funded by Department 97 appropriations, Note 1 should clearly explain that
    military personnel costs are not included in the Other Defense Organizations
    Financial Statements.



Changes to Financial Statements

    DFAS Indianapolis (Sustaining Forces) made changes to the financial statements
    totaling $390.16 billion after presenting the financial statements to the IG, DoD,
    for audit. See Table 5 for the total value of the changes by financial statement
    and Appendix F for the total value of the material changes by line item.




                                        20
                Table 5. Changes Made to Financial Statements
                        After Being Presented for Audit

                                                           Total Value
                                                           of Changes
                Financial Statement                           (billions)

        Balance Sheet                                        $ 3.25

        Statement of Net Cost                                    0.08

        Statement of Changes in Net Position                     1.26

        Statement of Budgetary Resources                         0.02

        Statement of Financing                                385.55

           Total                                             $390.16


    DoD Financial Management Regulation, volume 6B, chapter 2, “General
    Instructions for the Financial Statements,” October 2000, requires DoD to
    provide the IG, DoD, with financial statements for audit. The financial
    statements presented for audit should report the same financial information as
    the final financial statements, except for changes recommended by the auditors.
    The changes to the Statement of Financing occurred primarily because DFAS
    Indianapolis (Sustaining Forces) did not use two accounts that were new in
    FY 2000 to prepare the financial statements presented to us for audit, but
    corrected the error prior to preparing the final financial statements.

    We did not have adequate time to identify the causes of the remaining changes.
    Materially modifying the financial statements after presenting them for audit
    potentially undermines the ability of the auditors to produce audit results fully
    relevant to the final version of the financial statements.



Materiality to DoD Agency-Wide Financial Statements

    The lack of reliable and auditable financial statements for the Other Defense
    Organizations-General Funds materially impacts the DoD Agency-Wide
    Financial Statements. For FY 2000, 50 lines on the Other Defense
    Organizations-General Funds Financial Statements were material to the DoD
    Agency-Wide Financial Statements. See Table 6 for an example of several
    selected lines that contribute significantly to the overall amount reported on the
    DoD Agency-Wide Financial Statements.



                                        21
 Table 6. Selected Other Defense Organizations Financial Statement Lines
                   that Represent Significant Portions of
                the DoD Agency-Wide Financial Statements

                                                   Amount                 Percent of
        Financial Statement Line                   (billions) `        DoD Agency-Wide

    Fund Balance With Treasury                      $32.4                            18

    Budget Authority                                  58.1                           16

    Obligations Incurred                              60.9                           13

    Total Outlays                                     56.4                           17




As shown in Figure 2, the Other Defense Organizations-General Funds are
comparable to the Army, Navy, and Air Force General Funds.


                                                             Total Outlays
 $100

  $90
                                                           $87.9
                    Funds with Treasury
  $80                                                               $82.3

  $70                                              $70.6

  $60                 $62.5
                                                                             $56.4
  $50

  $40                         $40.5
            $34.5                     $32.4
  $30

  $20
                               Air                                  Air
  $10
             Army Navy        Force ODO            Army    Navy    Force ODO
   $-



                      Figure 2. Comparison of Selected Lines
                      for the General Fund Reporting Entities
                                      (billions)




                                              22
Conclusion

    We are not making recommendations to address causes discussed in this finding
    because the needed recommendations were made in prior audit reports.

    IG, DoD, Report No. 99-191, recommended that DFAS Indianapolis
    (Sustaining Forces) explain, in the footnotes to the financial statements, material
    abnormal balances reported on the financial statements and disclose abnormal
    balances that were included in normal balances reported on the financial
    statements. DFAS Indianapolis (Sustaining Forces) agreed to make the
    disclosures by January 31, 2000. However, the financial statements prepared
    for FY 2000 did not fully make the recommended disclosures.

    IG, DoD, Report No. 99-014, recommended that DFAS Indianapolis
    (Sustaining Forces) disclose that costs for military personnel were not included
    in financial data for Other Defense Organizations. DFAS Indianapolis
    (Sustaining Forces) concurred with the recommendation and estimated that the
    recommendation would be implemented by March 31, 1999. However, our
    review of the FY 2000 financial statements showed that the footnotes did not
    disclose that costs for military personnel were not included in the financial
    statements.

    Also see Appendix B for a list of open audit recommendations that address
    issues discussed in this finding.




                                        23
Appendix A. Audit Process


Scope

    Financial Information, Procedures, and Controls Reviewed. We are not
    expressing an opinion on the FY 2000 Financial Statements for Other Defense
    Organizations. Our audit was designed to support the FY 2000 DoD
    Agency-Wide Financial Statements and we focused on Other Defense
    Organizations-General Funds. We reviewed the Reports on Budget Execution
    and trial balances, and we specifically looked at abnormal balances, differences
    between the Reports on Budget Execution and U.S. Treasury Records, and
    differences between the Reports on Budget Execution and trial balances. We
    also reviewed data supporting the Balance Sheet, the Statement of Net Cost, the
    Statement of Net Position, the Statement of Budgetary Resources, the Statement
    of Financing, the Statement of Custodial Activity, and notes to the financial
    statements. See IG, DoD, Report No. D-2001-060 “Internal Controls and
    Compliance With Laws and Regulations for the FY 2000 Financial Statements
    for Other Defense Organizations-General Funds,” February 28, 2001, for our
    review of internal controls.

    Amounts Reported in the FY 2000 Financial Statements. The FY 2000
    Other Defense Organizations-General Funds Financial Statements showed Total
    Assets of $42 billion, Total Liabilities of $201.6 billion, Budgetary Authority of
    $58.1 billion, Net Cost of Operations of $53.9 billion, and Obligations Incurred
    of $60.9 billion.

    Accounting Principles. Accounting principles and standards for the Federal
    Government have been issued and are undergoing further development and
    refinement. The Federal Accounting Standards Advisory Board was established
    by the Director, OMB; the Secretary of the Treasury; and the Comptroller
    General of the United States. On October 19, 1999, the American Institute of
    Certified Public Accountants recognized the Federal Accounting Standards
    Advisory Board as the body to establish generally accepted accounting principles
    for Federal governmental entities. Therefore, Statements of Federal Financial
    Accounting Standards issued by the Federal Accounting Standards Advisory
    Board are recognized as generally accepted accounting principles for applicable
    Federal governmental entities.

    Agencies are required to follow the hierarchy of accounting principles outlined
    in OMB Bulletin No. 97-01, “Form and Content of Agency Financial
    Statements,” October 16, 1996, as amended on September 11, 2000. The
    hierarchy is as follows:




                                        25
       •   standards agreed to and published by the Director, OMB; the
           Secretary of the Treasury; and the Comptroller General of the United
           States;

       •   interpretations of the Statements of Federal Financial Accounting
           Standards issued by OMB;

       •   requirements for the form and content of financial statements outlined
           in OMB Bulletin No. 97-01; and

       •   accounting principles published by other authoritative sources.

DoD-Wide Corporate-Level Government Performance and Results Act
Goals. In response to the Government Performance and Results Act, the
Secretary of Defense annually establishes DoD-wide corporate-level goals,
subordinate performance goals, and performance measures. This report pertains
to achievement of the following goal, subordinate performance goal, and
performance measures.

       •   FY 2001 Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains
           U.S. qualitative superiority in key warfighting capabilities.
           Transform the force by exploiting the Revolution in Military Affairs,
           and reengineer the Department to achieve a 21st century
           infrastructure. (01-DoD-2)

       •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
           financial and information management. (01-DoD-2.5)

       •   FY 2001 Performance Measure 2.5.1: Reduce the number of
           noncompliant accounting and financial systems. (01-DoD-2.5.1)

       •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
           opinions on financial statements. (01-DoD-2.5.2)

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following functional area objective and
goal.

       •   Financial Management Functional Area. Objective: Strengthen
           internal controls. Goal: Improve compliance with the Federal
           Managers' Financial Integrity Act. (FM-5.3)

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the DoD. This report provides coverage
of the DoD Financial Management high-risk area.




                                   26
Methodology

    Auditing Standards. This financial related audit was performed in accordance
    with auditing standards issued by the Comptroller General of the United States,
    as implemented by the IG, DoD, based on the objectives of the audit and the
    limitations to the scope described in this appendix.

    Computer-Processed Data. We used computer-processed data in this audit;
    however, we did not confirm the reliability of the data because the accounting
    systems used to prepare the financial statements for Other Defense
    Organizations had serious limitations. The lack of reliable financial information
    was described as a material management control deficiency in the DFAS Annual
    Statements of Assurance for FY 2000. The lack of reliable information did not
    adversely affect our analysis.

    Audit Period and Location. We performed this financial-related audit from
    October 2000 through March 2001 at DFAS Indianapolis (Sustaining Forces).

    Contacts During the Audit. We visited and contacted individuals and
    organizations within DoD. Further details are available on request.



Prior Coverage

    The General Accounting Office and the IG, DoD, have conducted multiple
    reviews related to financial statement issues. General Accounting Office reports
    can be accessed on the Internet at http://www.gao.gov. IG, DoD, reports can
    be accessed on the Internet at http://www.dodig.osd.mil.




                                       27
Appendix B. Prior Audit Reports With Open
            Recommendations
   For FY 2000, the DFAS Indianapolis (Sustaining Forces) Project Assessment
   Team continued to monitor and track financial reporting deficiencies and
   corrective actions taken. The Project Assessment Team used a tracking
   document known as the “DFAS Indianapolis (Sustaining Forces) Implementation
   Strategies for Other Defense Organizations-General Fund.” The team included
   representatives from each working group within DFAS Indianapolis (Sustaining
   Forces) responsible for initiating corrective actions, along with representatives
   from the IG, DoD. The Project Assessment Team continues to be an active and
   useful mechanism for monitoring the quality of the internal controls over
   financial reporting procedures at DFAS Indianapolis (Sustaining Forces). Our
   audit of the FY 2000 financial statements identified the following audit
   recommendations that have not been fully implemented or are in the process of
   being implemented.

   IG, DoD, Report No. D-2000-153, “Compilation of the FY 1999 Financial
   Statements For Other Defense Organizations-General Funds,” June 23, 2000.
   Open Recommendations: We recommended that accounting offices supporting
   the Other Defense Organizations correct abnormal balances, if appropriate, and
   footnote all abnormal balances included on quarterly and annual trial balances
   submitted to DFAS Indianapolis (Sustaining Forces) for inclusion in the
   financial statements. At least five accounting offices complied with the
   recommendation. Of the six remaining accounting offices, three offices, the
   Defense Agency Financial Services, DFAS Columbus, and DFAS Indianapolis
   (Sustaining Forces), are under the purview of DFAS which anticipated full
   implementation of the recommendations to be complete by January 2001. The
   Defense Information Systems Agency, Defense Threat Reduction Agency and
   TRICARE Management Activity had agreed to submit footnotes by
   September 30, 2000, but DFAS Indianapolis (Sustaining Forces) did not receive
   footnotes with the September 30, 2000, trial balances submitted by the
   three agencies.*
   We further recommended DFAS Indianapolis (Sustaining Forces) establish and
   implement detailed procedures to review the trial balances submitted for Other
   Defense Organizations at least quarterly to identify abnormal balances and
   differences between the trial balances and Reports on Budget Execution. DFAS
   Indianapolis (Sustaining Forces) developed the General Ledger Reconciliation
   Report to implement the recommendation and currently plans to use the report
   to perform a review of the trial balances submitted for the first quarter of
   FY 2001.

   IG, DoD, Report No. 99-191, “Compilation of the FY 1998 Financial
   Statements For Other Defense Organizations,” June 24, 1999. Open
   Recommendations: We recommended that DFAS Indianapolis (Sustaining
   Forces) disclose material abnormal balances included in normal balances in
   footnotes to the financial statements. DFAS Indianapolis (Sustaining Forces)

   *Revised



                                      28
agreed to make the disclosures by January 31, 2000; however, the financial
statements prepared for FY 2000 did not fully make the recommended
disclosures.

IG, DoD, Report No. 99-139, “Internal Controls and Compliance With Laws
and Regulations for the FY 1998 Financial Statements of the Other Defense
Organizations,” April 21, 1999. Open Recommendation: We recommended
that DFAS Indianapolis (Sustaining Forces) prepare an action plan for
reconciling accounting records to the U.S. Treasury Records. To accomplish the
reconciliation, DFAS Indianapolis (Sustaining Forces) developed the Cash
Management Report to calculate balances with the U.S. Treasury at the
appropriation and sub-entity level. The Cash Management Report provides the
detailed information necessary to account for the differences between the
accounting records and U.S. Treasury records. During FY 2000, DFAS
Indianapolis (Sustaining Forces) attempted to use the Cash Management Report
to adjust Reports on Budget Execution so that they matched the U.S. Treasury
records; however, due to significant problems with sub-entity codes, DFAS
Indianapolis (Sustaining Forces) stopped using the Cash Management Report to
make the adjustments. DFAS Indianapolis (Sustaining Forces) has continued to
work with accounting offices to develop a set of valid sub-entity codes and
intends to resume the process of using the Cash Management Report to adjust
Reports on Budget Execution in April 2001 for FY 2001 appropriations.

IG, DoD, Report No. 99-014, “Compilation of the FY 1997 Financial
Statements For Other Defense Organizations,” October 15, 1998. Open
Recommendation: We recommended that DFAS Indianapolis (Sustaining
Forces) document and maintain complete audit trails for all year-end
adjustments made to the Other Defense Organizations trial balances. During
FY 2000, DFAS Indianapolis (Sustaining Forces) prepared the Recurring
Journal Voucher Handbook, August 24, 2000, to provide documentation for
accounting entries that are routinely prepared during the annual compilation
process. In addition, DFAS issued a memorandum, titled “Journal Voucher
Guidance,” on August 2, 2000, to provide guidance on the preparation of
year-end accounting entries. Notwithstanding these commendable actions, our
review of year-end accounting entries continued to identify instances where the
supporting documentation was not complete.

We further recommended DFAS Indianapolis (Sustaining Forces) disclose in the
notes to the financial statements that costs for military personnel are not
included in financial data for Other Defense Organizations. DFAS Indianapolis
(Sustaining Forces) concurred with the recommendation and estimated that the
recommendation would be implemented by March 31, 1999. However, our
review of the FY 2000 financial statements showed that the footnotes did not
disclose that costs for military personnel were not included in the financial
statements.




                                   29
Appendix C. Other Defense Organizations-
            General Funds
           The list of 51 Other Defense Organizations-General Funds for FY 2000
           compiled in this appendix includes trust funds and revolving funds not included
           in Treasury basic symbol 4930, Defense Business Operation Funds (known as
           “Defense Working Capital Fund”). DoD Regulation 7000.14-R,
           “DoD Financial Management Regulation,” volume 6B, chapter 2, “General
           Instructions for the Financial Statements,” October 2000, identifies most of the
           Other Defense Organizations. Additional Other Defense Organizations funded
           with Department 97 funds, but not listed in the DoD Regulation 7000.14-R, are
           included in the list below and distinguished by footnotes.

                    American Forces Information Service
                    Ballistic Missile Defense Organization
                    Defense Acquisition University
                    Defense Advanced Research Projects Agency
                    Defense Building Maintenance Fund

                    Defense Commissary Agency
                    Defense Contract Audit Agency
                    Defense Contract Management Agency
                    Defense Emergency Response Fund
                    Defense Finance and Accounting Service

                    Defense Health Program
                    Defense Homeowners Assistance Fund
                    Defense Information Systems Agency
                    Defense Intelligence Agency
                    Defense Legal Services Agency

                    Defense Logistics Agency
                    Defense Manpower Data Center Facility1
                    Defense Medical Program Activity
                    Defense Prisoner of War/Missing Persons Office
                    Defense Security Cooperation Agency

                    Defense Security Service
                    Defense Threat Reduction Agency
                    DoD Component Level Accounts
                    DoD Education Activity
                    DoD Education Benefits Fund




1
    This Department 97 funded organization is not listed in DoD Regulation 7000.14-R.



                                                    30
                    DoD Human Resources Activity
                    Federal Energy Management Program
                    Foreign National Employees Separation Pay Accounts Trust Fund2
                    Joint Chiefs of Staff
                    Joint Logistics Systems Command

                    National Defense Stockpile Transaction Fund
                    National Imagery and Mapping Agency
                    National Security Agency
                    National Security Education Trust Fund
                    Office of Economic Adjustment

                    Office of the Inspector General, DoD
                    Office of the Secretary of Defense (OSD)
                    Other Prior Year Residual “97” Funds
                    Other “97” Funds Provided to the Air Force by OSD
                    Other “97” Funds Provided to the Army by OSD

                    Other “97” Funds Provided to the Navy by OSD
                    Other “97” Funds Provided to Washington Headquarters Services by
                     OSD
                    Pentagon Reservation Maintenance Revolving Fund
                    Ready Reserve Mobilization Income Insurance Fund
                    Technical Research Institute

                    TRICARE Management Activity
                    U.S. Court of Appeals of the Armed Forces
                    U.S. Special Operations Command
                    Uniformed Services University of the Health Sciences
                    Voluntary Separation Incentive Trust Fund

                    Washington Headquarters Services




2
    This Department 97 funded organization is not listed in DoD Regulation 7000.14-R.




                                                    31
Appendix D. Accounting Activities Submitting
            Abnormal Balances of More Than
            $10 Million
              Defense Activity or
              Accounting Office                  Limit*                  Entity or Sub-Entity Name

Defense Agency Financial Services                1884          Defense Health Program

Defense Information Systems Agency               4300          Defense Information Systems Agency

DFAS Cleveland                                   1104          Office of the Secretary of Defense – Navy
                                                 1634          Base Closure and Realignment Commission -
                                                                Navy
                                                 1882          Defense Health Program – Navy
                                                 2004          Washington Headquarters Services – Navy
                                                 2504          Ballistic Missile Defense Organization – Navy
                                                 5604          Special Operations Forces, Defense – Navy
                                                 6034          Section 6 - Navy Stateside Dependent Schools

DFAS Columbus                                    4600          Defense Contract Audit Agency
                                                 5100          Defense Logistics Agency
                                                 6101          Defense Acquisition University

DFAS Denver                                      0200          Department of the Air Force
                                                 0202          Air Force National Guard
                                                 1102          Office of the Secretary of Defense – Air Force
                                                 1632          Base Closure and Realignment Commission –
                                                                Air Force
                                                 1883          Defense Health Program – Air Force
                                                 25FF          Ballistic Missile Defense Organization –
                                                                Air Force

DFAS Indianapolis (Sustaining Forces)            0000          Unallocated
                                                 0100          Department of the Army
                                                 1101          Office of the Secretary of Defense - Army
                                                 1102          Office of the Secretary of Defense - Air Force
                                                 11A1          Base Closure and Realignment Commission -
                                                                Army
                                                 11B1          Army Base Realignment and Closure Account
                                                 1201          Organization of the Joint Chiefs of Staff - Army


*
    Appropriation limits are the four-digit suffixes to the U.S. Treasury account number (basic symbol) that
    identify a subdivision of funds, restrict the amount or use of funds for a certain purpose, or identify sub-
    elements within the account for management purposes. For Other Defense Organizations, the
    appropriation limit usually shows the organization or fund for which the appropriation provides funding.



                                                          32
          Defense Activity or
          Accounting Office             Limit                  Entity or Sub-Entity Name

DFAS Indianapolis (Sustaining Forces)   1301         Defense Advanced Research Projects Agency -
(continued)                                           Army
                                        1302         Defense Advanced Research Projects Agency -
                                                      Air Force
                                        1401         TRICARE Management Activity – Army
                                        1801         Defense Health Program
                                        1881         Defense Health Program - Army
                                        2001         Washington Headquarters Services - Army
                                        2501         Ballistic Missile Defense Organization - Army
                                        2601         Ballistic Missile Defense Organization - Army
                                        3601         Civilian Military Program - Army
                                        40B1         Base Closure and Realignment Commission -
                                                      Army
                                        40C1         Base Closure and Realignment Commission -
                                                      Army
                                        40D1         Army Base Realignment and Closure Account
                                        4202         Defense Special Weapons Agency Field
                                                      Command
                                        4300         Defense Information Systems Agency
                                        4365         White House Communication Agency
                                        4370         Defense Information Systems Agency - Pacific
                                        4371         Defense Information Systems Agency
                                        4500         National Security Agency/Central Security
                                                      Service
                                        5600         Special Operations Forces, Defense –
                                                      All Agencies/Services
                                        5601         Special Operations Forces, Defense - Army
                                        6041         DoD Dependent Schools - Army
                                        6400         Defense Commissary Agency
                                        7000         Defense Finance Accounting Service Operating
                                                      Locations

DoD Dependent Schools                   6001         DoD Dependent   Schools – Germany Region
                                        6019         DoD Dependent   Schools
                                        6021         DoD Dependent   Schools - Europe
                                        6060         DoD Dependent   Schools – Foreign Currency
                                                      Fluctuation

TRICARE Management Activity             1886         Defense Health Program – Civilian Health And
                                                      Medical Program of the Uniformed Services
                                                      (CHAMPUS)

Defense Threat Reduction Agency         4200         Defense Special Weapons Agency




                                                33
Appendix E. Sub-Entities With Data
            Discrepancies Over $500 Million

                                                                             Amount of
                                                                            Discrepancies
 Limit                            Name of Sub-Entity                          (billion)

 1881    Defense Health Program - (Operations & Maintenance) Army               $15.6
 2501    Ballistic Missile Defense Organization - Army                           11.9
 9999    Pseudo Sub-Entity for Undistributed Funds                                5.2
 5600    Special Operation Forces, Defense – All Agencies/Services                4.2
 0100    Department of the Army                                                   4.1
 1301    Defense Advanced Research Projects Agency - Army                         2.2
 1101    Office of the Secretary of Defense - Army                                1.8
 2520    Ballistic Missile Defense Organization – Washington Headquarters         1.7
            Services
 2601    Ballistic Missile Defense Organization - Army                            1.7
 7000    Defense Finance and Accounting Service Operating Locations               1.4
 1882    Defense Health Program - (Operations & Maintenance) Navy                 1.1
 0301    Operations and Maintenance for Chemical Agents and Munitions
            Destruction                                                           1.1
 5602    Special Operations Forces, Defense – Air Force                           0.7
 0201    Air Force Reserve                                                        0.7
 1897    Defense Health Program Undistributed Funds                               0.7
 4300    Defense Information Systems Agency                                       0.6
 0004    Contributions for Proprietary Receipts and Burdensharing                 0.6
 2020    Washington Headquarters Services                                         0.6




                                            34
Appendix F. Financial Statement Lines That
            Were Materially Modified
                                                 Amount
                  Account Title                 of Change
                                                 (billions)
    Balance Sheet
       Accounts Receivable                       $ .9
       Other Liabilities                           .6
       Military Retirement Benefits and Other
                                                     .2
          Employment Related
       Other Liabilities                             .4
       Cumulative Results of Operations              .9
    Statement of Changes in Net Position
       Imputed Financing                             .1
       Other                                         .8
       Prior Period Adjustment                       .2
    Statement of Financing
       Financing Imputed for Cost Subsidies          .1
       Financing Sources that Fund Cost of
                                                 192.6
          Prior Periods
       Other–(Increases)/Decreases                  .2
       Financing Sources Yet To Be Provided      192.6
         Total                                  $389.6




                                     35
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland
   Director, Defense Finance and Accounting Service Columbus
   Director, Defense Finance and Accounting Service Denver
   Director, Defense Finance and Accounting Service Indianapolis (Sustaining Forces)
Director, Defense Information Systems Agency
Director, Defense Threat Reduction Agency
Director, DoD Education Activity
Director, TRICARE Management Activity
Director, Washington Headquarters Services
President, Uniformed Services University of the Health Sciences

Non-Defense Federal Organization
Office of Management and Budget




                                           36
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                         37
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report, are listed below.

F. Jay Lane
Salvatore D. Guli
Charles J. Richardson
Sandra L. Fissel
Jonathan R. Witter
Juana R. Smith
Karen J. Lamar
Jennifer R. Siwula
Alejandra P. Rodriguez
Dwayne A. Coulson
Carol J. Gresham
Lisa Rose-Pressley
